<html>
<title> - SUPPORTING MILITARY FAMILIES: THE GROTON MODEL</title>
<body><pre>[Senate Hearing 108-306]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-306
 
             SUPPORTING MILITARY FAMILIES: THE GROTON MODEL
=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING HOW EFFECTIVE THE NAVY HAS BEEN IN MAKING IT EASIER FOR 
  MILITARY FAMILIES RAISING CHILDREN AND TO DETERMINE WHAT ADDITIONAL 
        CHANGES CAN BE MADE TO FURTHER ASSIST MILITARY FAMILIES

                               __________

                       JUNE 16, 2003 (GROTON, CT)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions







                   U.S. GOVERNMENT PRINTING OFFICE
88-089                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001











          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                   Marguerite Sallee, Staff Director
                 Grace A. Reef, Minority Staff Director

                                  (ii)












                            C O N T E N T S

                               __________

                               STATEMENTS

                         Monday, June 16, 2003

                                                                   Page
Alexander, Hon. Larmar, a U.S. Senator from the State of 
  Tennessee......................................................     1
Ratte, Captain James E. Jr., USN, Commanding Officer, Naval 
  Submarine Base New London; James Mitchell, Superintendent, 
  Groton School District; Cynthia Clegg, President, Chamber of 
  Commerce of Eastern Connecticut; Sarah Scott, President, 
  Submarine Officer Spouse Association; and Debbie Estes, 
  Chairwoman, Ombudsman Council..................................     6

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Captain James E. Ratte, Jr...................................    23
    E-Mails to Debbie Estes......................................    26
    Response to questions of Senator Dodd from Debbie Estes......    33

                                 (iii)

  

















             SUPPORTING MILITARY FAMILIES: THE GROTON MODEL

                              ----------                              


                         MONDAY, JUNE 16, 2003

                               U.S. Senate,
             Subcommittee on Children and Families,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
the Youth Center, Naval Submarine Base New London, 29 Hickory 
Drive, Groton, CT, Senator Alexander, chairman of the 
subcommittee, presiding.
    Senators Alexander and Dodd.

                 Opening Statement of Senator Alexander

    Senator Alexander. Good morning. I am Lamar Alexander, a 
United States Senator from Tennessee. And of course you know 
your own Senator, Chris Dodd.
    I call the hearing to order of our Subcommittee on Children 
and Families. I am a member of the U.S. Senate, and I am the 
chairman of the subcommittee. Senator Dodd is the ranking 
member of the subcommittee. The only reason that is decided, it 
is not by open popularity, just by accident of election. Two 
more years might go by and he will be the chairman and I will 
be the ranking member.
    We are here today to talk about military parents raising 
children and what is being done, because a lot is already being 
done, what we might do better. My thanks to Captain Ratte and 
his team who have already spent time with us this morning. We 
have enjoyed our tour and have seen the new facilities, seen 
the Child Development Center, seen what is happening to the 
bowling alley.
    This hearing is the third of four hearings that we have 
planned. We may have more before we are through. We are looking 
at the pocket of military parents raising children. We were 
engaged by what we called field hearings in Fort Campbell, 
Tennessee and Kentucky a few weeks ago. On the same day Senator 
Sachs, Chairman of Georgia, Chairman of the Personnel Committee 
of the Armed Services Committee, Warner Robbins, Air Force 
Base, ranking member of that committee. Senator Nelson is 
holding a field hearing in Nebraska, and later this month 
Senator Dodd, Senator Nelson, Senator Chambliss and I will 
convene the two subcommittees and hold a joint committee 
hearing, reporting what we found and listen to some additional 
testimony to try to keep our spotlight on the families at home.
    It is unusual for four senators, I think, spending this 
much time on any subject, and this is in different placements. 
But it is important because we want to keep our focus on the 
men and women who serve us overseas, but we also want to keep 
our focus on their families at home. Because we believe that 
military babies depend on the family, and that is our focus 
today.
    More than half a million women in the United States 
military are married. About half are parents raising children. 
That is less, though, but of late, but it is still true of many 
in the Navy. Military men and women choose their profession and 
choose to marry, but in order to continue to attract and retain 
the best, the most talented volunteers, we want to do 
everything we can reasonably do to make it easier for military 
parents raising children. All societies benefit when children 
grow up with nurturing parents. That is why we are holding this 
hearing, to see how well the Navy is doing in terms of making 
it easier for military families raising children and what can 
be done better. We want to look at schooling, at housing, at 
childcare, at health care, paying taxes, frequent moves, 
deployment, and reintegration. All of those are issues that 
impact our service members as well as families.
    The hearing that I chaired at Fort Campbell which involved 
the Army a few weeks ago presented a picture of fewer soldiers, 
more missions, longer deployments, frequent moves, more 
marriages, more spouses working away from home and more 
children. For example, LaSalle Medley, wife of the Commander of 
Genetic Helicopter Company, told us that she and her husband 
had two children. The youngest of those is 17 months old. Her 
husband has been away for 15 to 17 months. The 2 months he was 
home he was spending most of his time training to take his next 
assignment. She said, quote, there must be a sense of 
proportion. Husbands want to serve their country, want to be 
good soldiers, but also want to be good husbands and fathers. 
And we want them and their spouses to feel that way as well, 
because we invest a lot of money, we taxpayers, in attracting 
and training extremely talented people who are here today and 
on our military bases in ports around the world. And we want to 
make sure that we keep them as long as we can.
    I thank you for having me here today. I was last here when 
the USS Tennessee was launched. It was launched in the middle 
of the winter. Fortunately, all the politicians' speeches were 
short, because we were freezing to death that day. It was a 
great source of pride to be at such a story part of America's 
history, and it is a great privilege for me to be here with 
Chris Dodd.
    Chris Dodd is a champion for families and children and has 
a senate career. He is one of the senior members of the U.S. 
Senate and one of the ranking members of the committee on 
Health and Education. He is the ranking member of this 
committee. In fact, Senator Dodd is in his home State.
    Senator Dodd. Thank you very, very much, Mr. Chairman. And 
let me just begin by saying to all of you here what an honor it 
is to have Lamar Alexander being in this facility from 
Tennessee. He has been the chairman of this committee a little 
over 2 years now, and I have been on the committee--he has been 
the chairman or ranking member of this committee for the past 
23 years, since I first arrived on the U.S. Senate. I am 
particularly excited about having him on to chair. Don't 
misunderstand me. Given the option I would prefer he were the 
ranking member, but aside from that I couldn't think of a finer 
individual to chair this committee. And he has demonstrated 
that already during the brief time he has had an opportunity to 
work on a number of issues.
    You should know that it was his idea to do this, to come up 
here and to conduct hearings around the country, bringing 
together the subcommittee of the Armed Services Committee, 
dealing with individuals and their issues, along with the 
Subcommittee on Children and Families. It doesn't have 
particular jurisdiction over military families, but families 
and children. We don't discriminate when talking about children 
and families throughout the military; the idea of combining the 
two committees in a series of field hearings around the 
country. It has been a wonderful idea to have as much 
information in the amount of time we have to bring together 
collectively to see what ideas we can attribute to improving 
the quality of our armed services.
    Senator Alexander has a remarkable history, of course, in 
public service, having been the governor of the State for a 
number of years; the president of a major university; the 
secretary of education, dealing with education issues all 
across the country.
    I know Dr. Mitchell is very familiar with the Morale work, 
secretary of education, presidential candidate. We have one of 
those in Connecticut, too. Mara here obviously did a wonderful 
job in all of those issues and really a wonderful individual to 
be in charge of this subcommittee and, again, to champion these 
issues which are so critically important. As he said it so 
well, obviously strong families make a strong military. It is 
very simple. If the families are strong and feel as though they 
are getting the kind of backing and support that they need, 
then the ability of those members of the family, husband or 
wife or both, who are serving in uniform, they get to do their 
job far more efficiently, with a far greater degree of 
expertise and focus if things on the home front are in good 
shape. If things on the home front are not in good shape, it is 
axiomatic that there will be a problem doing your job. It is 
just that simple. I don't care what profession you are in, but 
particularly one that involves the security of our Nation that 
seems critically important to both of us here that we get this 
right and do as much as we can to improve the quality of 
people's lives.
    As we will discover in today's hearing, others as well the 
community outside these base walls plays an indispensable role 
in supporting military families stationed at Naval Submarine 
Base New London and Groton. This community includes eastern 
Connecticut's businesses, State and local agencies, the school 
board, and the local Navy League Chapter. I believe that the 
partnership that exists here between the Groton community and 
the base leadership can serve as an important model for 
military facilities across the country in building a solid 
support network for our military personnel and their families.
    The strains on submariners' family life are particularly 
unique within the Navy, and, indeed, within the entire Armed 
Forces. I have had the privilege of representing the Submarine 
Base for almost 30 years now, going back to 1974. So I have 
been through every imaginable configuration you can think of 
over the years; some of these battles.
    My first cousin, Bill Macabee, was chosen submarine 
commander, so I grew up in a family well aware of the pressures 
and difficulties that a submariner's family can face. So it's 
difficult. There are some unique experiences a submariner has 
to face to make that service different than any other.
    First, even during peacetime submariners frequently deploy 
away from home, oftentimes for up to 6 months. And because of 
the secrecy of the submarine missions and restrictions on 
shipboard communications, it could be some time before a sailor 
can make contact with his child or spouse back at home.
    Finally, unlike most other parts of today's military, the 
submarine fleet is--all this means is the family burden falls 
exclusively on the shoulders of submariners' wives. Navy 
Submarine Base New London therefore offers I think an ideal 
case study to examine what roles the Navy as well as the local 
community can play in assisting military families adapt to a 
unique way of life; how we as a community, larger community, 
try to pay back, if you will, our soldiers, sailors, airmen and 
marines, as well as their families, for their service they are 
giving the Nation.
    We will explore this morning briefly how the community 
helps sailors and their families, just arriving for the first 
time at New London, experience a smooth or as smooth a 
transition into their new life as possible here in Connecticut, 
with orientation seminars and social events about the amenities 
of their newly adopted city, and with special programs for 
children to help them adapt to the environment, and new 
schools, and new communities.
    We are also going to discuss the most taxing time for our 
military families, the period when submariners are called to 
deploy away from home. We will discuss ways the base community 
works to ease the stress experienced by families when the 
submariners are underway, and areas where the improvements in 
this area are still needed.
    Under the Navy's stewardship our submariners and their 
support crews are the best prepared and most sophisticated in 
the world. In particular, Rear Admiral Walsh, Commander Navy 
Region Northeast, Captain Ratte, Commanding Officer of this 
base, and Captain Harrison, Commanding Officer of the Naval 
Submarine School have all worked, mind you, tirelessly to 
assemble an invaluable piece of this Nation's nuclear-powered 
Navy, the attack submarine force.
    Other people are also invaluable to our Nation's ability to 
succeed militarily, people like Jim Mitchell, who you'll meet 
this morning, who oversees school programs that will provide 
counseling and adequate nurturing for the submariner's child; 
the child who's having to cope without one of his parents for 
months and months on end because his dad is risking his life in 
the depths of some faraway ocean. People like C. Wayne Olsen 
and Mark Nickerson of the Eastern Connecticut Navy League 
Council, who build support for programs and events honoring our 
Navy families, boosting morale, and educating the public about 
those sacrifices. And ultimately it falls to moms and wives, 
like Mrs. Scott and Mrs. Estes, who you will also meet this 
morning, who serve as the sole managers of the household and 
pillars of strength during those long deployments undersea. 
These people deserve our deep, deep sense of gratitude and 
thanks, and today you will hear their stories.
    During his hearing at Fort Campbell, along the Kentucky-
Tennessee border, Chairperson Alexander noted the stress placed 
on our Nation's soldiers and their families in light of the 
most recent wars in Afghanistan and Iraq. ``Family readiness,'' 
he said, ``is part of military readiness.'' He said it here 
again today, and I agree with him. And the military's efforts 
to relieve the strains on our troops' spouses and children 
remain a very vital part of this Nation's ability to maintain 
the best fighting force around the globe. I could not agree 
more with you, Chairman.
    A good support network for our families allows sailors to 
focus on their military mission when they are at work, without 
worrying too much about potential problems at home. And a good 
quality of life will keep our retention numbers up, making the 
Navy a good career choice for young people starting their 
professional lives. As they put their lives on the line 
defending our Nation, it is the obligation of the United States 
Congress as well as the Department of Defense to work closely 
with local communities to ensure that our military families are 
well provided for and as pleased with their military way of 
life as possible. This is no more so the case than here at the 
Atlantic Fleet's foremost attack submarine facility in New 
London and Groton.
    Again, Mr. Chairman, I am very grateful to you for hosting 
this hearing--I am hosting and your being up here.
    I want to make reference to Mr. and Mrs. Osbourn. Thank you 
very much for being here. Mr. Oefinger as well, the town 
manager. The councilmen from Norwich and Groton/New London are 
all here. Staff of Congressman Simmons and Councilor Knorr. 
Where are the two staff members? Why don't you stand up and be 
recognized. Congressman Simmons's staffer, is he here? 
Congressman Lauro, I know he is here. Thank you very much. 
Congressman Simmons I recognize as well. It is nice to have him 
with us this morning. I thank you.
    Senator Alexander. Thanks, Senator Dodd. Senator Dodd 
mentioned for a while I was President of the University of 
Tennessee. One of the things we agreed not to talk about for 
the next couple of hours is women's basketball.
    Senator Dodd. You promised not to talk about it. I want to 
make the whole hearing about it. We will make them an honorary 
member.
    Senator Alexander. We have great respect for the 
Universities of Connecticut and Tennessee.
    Senator Alexander. Let's hear from our witnesses. Senator 
Dodd and I have done our homework. We have read your testimony 
and thank you very much for taking the time to prepare for 
these sensitive issues. It has been informative and very 
helpful. We have spent some time before we came here talking 
and visiting the facility. What I want to do is get a brief 
introduction to all five of you, not taking the time to give a 
long introduction, and ask each of you to make a few comments, 
up to five minutes or so or less if you would like, and then 
after that Senator Dodd and I will ask questions. And I think 
that will be the best way for us to add to the testimony that 
you have already presented to us. We will try to finish our 
hearing a little after eleven o'clock. And then if there is 
anything else that you have to add after that or facts or 
figures that we ought to consider, we have time to consider 
them, because we will be having our final, our next hearing on 
June 24th in Washington DC.
    So let me start with Captain Ratte, our host and 
distinguished officer who's the recipient of numerous awards 
and on the USS PHOENIX, but now he is the Commanding Officer of 
the Naval Submarine Bases here with a great amount of 
responsibility. And we thank you for hosting us today. Dr. Jim 
Mitchell, who Senator Dodd already mentioned, Superintendent of 
Schools in Groton with more than 30 years of experience in that 
school system. And Cynthia Clegg, who we welcome, who is 
President of the Chamber of Commerce of Eastern Connecticut and 
deeply involved with the activities here at the base. And we 
look forward to her remarks. Miss Sarah Scott, the President of 
the Submarine Officer's Spouse Association. So she spent her 
entire life in a military family. We look forward to her 
perspective. And Miss Debbie Estes, who is the spouse of a 
submariner as well as the ombudsman for one of the submarines 
here in Groton and also the Submarine Group Two Ombudsman 
Assembly Chair. Thank you for being here.
    Captain Ratte, we look forward to your testimony.

  STATEMENTS OF CAPTAIN JAMES E. RATTE, JR., USN, COMMANDING 
   OFFICER, NAVAL SUBMARINE BASE NEW LONDON; JAMES MITCHELL, 
    SUPERINTENDENT, GROTON SCHOOL DISTRICT; CYNTHIA CLEGG, 
 PRESIDENT, CHAMBER OF COMMERCE OF EASTERN CONNECTICUT; SARAH 
  SCOTT, PRESIDENT, SUBMARINE OFFICER SPOUSE ASSOCIATION; AND 
          DEBBIE ESTES, CHAIRWOMAN, OMBUDSMAN COUNCIL

    Captain Ratte. Mr. Chairman and Senator Dodd, thank you for 
the introduction. Good morning and welcome to Groton, CT, the 
submarine capital of the world, and Naval Submarine Base New 
London, the home of our submarine force. Thank you for visiting 
and allowing me the opportunity to speak to this subcommittee 
about the families, sailors, children, and community of the 
first, and what I believe is one of the finest, attack 
submarine bases in the Navy.
    Senator Alexander. You might move the microphone a little 
bit closer.
    Captain Ratte. There we go.
    Today marks my tenth month as commanding officer of this 
base. I asked for this assignment, I got it, and like my 
predecessors, I consider the opportunity a great privilege.
    Currently we homeport 17 submarines, 14 LOS ANGELES Class 
attack submarines, two SEAWOLF Class attack submarines and NR-
1, the Navy's only nuclear-powered, deep-diving research 
submarine.
    Submarine Base New London's focus, however, extends beyond 
those national assets stationed on our waterfront and the 
tenant commands that support them. Our mission remains to 
support fleet readiness by providing quality service and 
facilities through our submarine community and their families. 
They are the true heart of Subbase New London. We are home to 
more than 7,500 military personnel and more than 12,000 
military family members. We also support more than 1,400 
civilian employees, over 1,000 defense contractors, 600 
drilling reservists, and over 12,000 military retirees. Of our 
military population 35 percent are married and 4 percent are 
single parents. As we have a large, young and single Submarine 
School student population, 40 percent of our sailors live in 
the barracks on the submarine base, while 25 percent live in 
the Navy family housing complex off base, and 35 percent live 
in the local community of southeastern Connecticut. But no 
matter the marital status and where sailors live, internal and 
external support networks ensure that they recognize they are 
not only part of our one local Navy family, but also partners 
in the southeastern Connecticut community.
    And partners we are. Every day I feel privileged to hear 
and see more and more examples of our sailors, our Department 
of Defense civilians, and military families contributing to the 
vibrancy of the southeastern Connecticut community; 
contributions from more than 1,500 personnel annually and 
spanning more than 40,000 volunteer hours. Of course it is more 
than a good business foundation or a strong local economy that 
makes a good community. Good neighbors make a good community. 
And the people of southeastern Connecticut have long been and 
continue to be wonderful neighbors to the Navy.
    The Groton Public School System has long recognized the 
uniqueness of the military child. The school system and former 
administrators helped spearhead the Military Child Education 
Coalition, a national organization committed to bringing 
military and local communities together in the school districts 
that best address the needs of the military child. Next month 
the coalition will be holding its fifth annual national 
conference here in Groton.
    Southeastern Connecticut businesses, large and small, have 
always welcomed service members and their families, offering a 
wide variety of discounts and special programs to show their 
appreciation. On an organized level the Chamber of Commerce of 
Eastern Connecticut and Groton Commission, Navy League, and 
other service organizations support our sailors and families 
through various initiatives at the Subbase through local 
community.
    While such external support networks assure our sailors and 
families of their partnership in our southeastern Connecticut 
community, our internal support networks assure them of our 
commitment as one Navy family.
    Tenant commands, activities, sailors and families are the 
customers, as the base and the regional quality of life 
storefronts are the service providers in such areas as housing, 
health care, and sailor and family child support.
    Current Navy and southeastern Connecticut support networks 
for our sailors and their families are a model of care, 
cooperation, and collaboration. That said we do face 
challenges. Our Child Development Program is operating under 
Most Sufficient Organization guidelines that concentrate on 
fiscal and management efficiencies. Our Fleet and Family 
Support Center is undergoing a functional assessment that will 
ultimately result in its operation under those guidelines as 
well. Anticipated growth on the base in terms of new tenant and 
homeported commands, as well as increasing support requirements 
to other local Department of Defense commands and units, may 
challenge our ability to continue to provide ample high quality 
support services. Continued strong support from the Congress, 
and DoD and Navy leadership, for robust and flexible Child 
Development Programs, Fleet and Family Support Centers and our 
many Morale, Welfare, and Recreation Programs would ensure that 
Naval Submarine Base New London has the resources and programs 
necessary to fully meet our mission: Service and support to our 
war fighters and their families.
    The sailors of families of Submarine Base New London have 
an outstanding support network. Our internal Navy programs 
ensure they feel the embrace of our one Navy family and our 
southeastern Connecticut partnerships ensure that they feel at 
home in the community. Retaining an effective and responsive 
support network will contribute significantly to Naval 
Submarine Base New London's ability to continue living up to 
our motto: ``The First and Finest'' attack submarine base in 
the Navy.
    With that, Mr. Chairman, I would ask my full testimony for 
inclusion in the record, and I look forward to any questions 
that you have of me. Thank you very much, sir.
    [The prepared statement of Captain Ratte may be found in 
additional material.]
    Senator Alexander. Thank you, Captain Ratte, and we will 
incorporate your entire testimony.
    And Dr. Mitchell, I think we can all hear you better if you 
move the mike pretty close to you. I think that's maybe--even 
closer than that. Thank you
    Mr. Mitchell. Thank you. Is that better?
    Senator Alexander. Yes, sir.
    Mr. Mitchell. OK. Good morning and thank you, Senator 
Alexander, Senator Dodd. I am Jim Mitchell, Superintendent of 
the Groton Public School System, and I take this opportunity to 
thank you for inviting me to speak to these critical issues. I 
am completing my second year as superintendent in Groton and my 
33rd year as an educator and administrator in the Groton Public 
School System. I am very pleased to speak to the positive 
relationship that has developed over the years between the 
military and school community in Groton.
    The Groton Public School System serves 5,800 students in 14 
buildings located throughout our community. We have one high 
school, three middle schools, and ten elementary school 
buildings. Groton is the home of the New London Submarine Base, 
and approximately 40 percent of the students we serve are 
dependents of active duty military personnel. The number of 
students connected to the military actually exceeds 50 percent 
when we add families that have retired and/or opted to remain 
in this community after completing their military tours. The 
Groton Public School System is a military community, because 
military children attend every school in our community. And I 
am proud of the relationship the school system has established 
in addressing the needs of the military family through direct 
educational and support services for our school-age children.
    Quality of life issues for military personnel and their 
families have always been a concern for the Groton Public 
School System. In 1995 a formal bond was established between 
the then Navy Base Commander Admiral Richard Buchanan and 
Groton Public School Superintendent George Reilly to address 
issues affecting the children of military personnel who 
frequently moved in and out of southeastern Connecticut. The 
Military/Superintendent's Liaison Committee was formed. The 
committee consisted of area superintendents, school personnel, 
and military personally who met regularly to address issues 
affecting the military dependent child and family. The first 
task was a standardization of student physical examination 
requirements for students who move frequently in and around 
southeastern Connecticut. Area superintendents successfully 
endorsed this standardization. In 1996 the first New England 
Conference, Serving The Military Child...Sharing Creative 
Approaches, was held in Waterford, CT. In 1998 the first 
International Conference focusing on serving the military child 
was held in Arlington, VA. Senator Dodd and Senator Lieberman 
were very supportive of us, as Senator Dodd mentioned. As a 
result of local efforts, both conferences were tremendously 
successful in identifying, addressing, and bringing national 
attention to the issues facing the military child and family.
    In 1998, as you have heard, the Military Child Education 
Coalition was formed and chartered in response to our mutual 
goal of attempting to provide a better quality of life for 
military children. The Navy Base and the Groton Public School 
System are members of MCEC. To reaffirm our commitment to serve 
the military child and family, the Groton Board of Education 
approved and became a signatory on the Memorandum of Agreement. 
A copy is provided in the information that I will provide to 
the senators later. As we continue to focus on the needs of the 
military child as you heard, I am also pleased to inform you 
and invite you to the fifth annual MCEC conference on serving 
the military child which will be held at the Mystic Marriott 
July 23rd, 2003. Guest speakers will include General Tommy 
Franks and Cokie Roberts, just to name a couple.
    The following are some examples of local efforts which 
serve the military child and family: Educational programs and 
classroom settings. The Groton Public School System provides a 
comprehensive Pre-K through 12 program designed to meet the 
needs of a constantly learning and growing community. We are 
equipped with the latest technology and utilize all resources 
to facilitate learning in our school community.
    Class sizes range from approximately 17 to 24 students, and 
many of our school personnel are or were connected to the 
military and, therefore, understand the needs of our students 
and their families. Military families have on several occasions 
requested and received extensions of duty tours in our 
community so that special programs, promotions, or graduations 
would occur for their children. This has validated the program 
and services the district provides.
    The Military/Superintendent's Liaison Committee. This 
committee includes representatives of the schools and military 
personnel; namely, the Navy, United States Coast Guard Academy, 
who meet monthly to discuss and address issues affecting the 
military child and family. Topics have included block 
scheduling, records transfer, local programs, course offerings, 
transitioning ideas, unique programs, recognition of military 
volunteers in each community, and networking to maintain open 
lines of communication and support.
    Transitional Counselors. To address the needs of high 
school students who experience frequent school relocations, 
counselors at our high school Fitch have participated in the 
Transitional Counselor Institute sponsored by MCEC and 
regularly share strategies and information with fellow 
counselors, students, and parents. Our high school provides 
student orientations and peer student helpers to assist all new 
students entering our high school.
    A three-day Freshman Academy is also provided during the 
summer for all students new to our high school. This has proven 
to be a very positive addition for first-time high school 
students. During the year academic support is provided to 
students by students and staff. In addition to the regular 
comprehensive academic programs, our schools also offer 
Advanced Placement courses and a challenging IB program. Our 
recently installed Interactive Counseling Center, ICC, will 
allow other districts with this equipment to interact visually 
in real time with our district personnel and should prove to be 
a great tool which will help our transitioning students.
    Parental Involvement. Each school in our community has an 
established School Improvement Team consisting of parents and 
school staff. This encourages parental involvement in our 
school and provides military parents with an opportunity to 
actively participate in school activities and functions 
affecting their school and community. A myriad of activities, 
events, and programs are scheduled regularly in each school for 
and with our parents.
    Volunteers. The district has a very active volunteer and 
mentoring program. Last year over 21,000 volunteer hours were 
logged, and this year we are projecting an increase over last 
year. Military personnel from the Sub school and Base serve as 
volunteers in all of our schools and are constant reminders of 
the cooperative and collaborative relationship that exist with 
our school and military community.
    When the active duty military member is deployed for an 
extended period of time, the school staff and the Fleet and 
Family Service staff are always available to provide support 
and reassurances that help our children, their families, and 
school staff. It is important to note that the school staff has 
also grown over the years as a direct result of training 
provided by the Fleet and Family staff and Navy personnel in 
helping civilians understand the effects of deployment and Navy 
life.
    I am very proud of the strong ties that exist between our 
school and military community. As we continue to look forward, 
I would still like to see longer tours of duty for military 
personnel with school-age children; no relocations for 
personnel with students in grades 11 or 12; and reciprocal 
agreements between states and the school systems serving 
military families with school-age children.
    Again, thank you for allowing me to address one aspect of 
what I think makes Groton a great place to live, and that is 
the concern we share for the future of our country, our 
children. Thank you.
    Senator Alexander. Thank you, Dr. Mitchell.
    And Cynthia Clegg, welcome.
    Ms. Mitchell. Good morning, Senator Alexander, Senator 
Dodd. It is with great pleasure that I talk about this 
community of eastern Connecticut and how we have embraced the 
Navy and vice versa.
    I would like to make sure that you know the Chamber of 
Commerce of Eastern Connecticut can't take full credit of the 
programs that are in place. There are a myriad of organizations 
and folks in the audience behind me who put in many volunteer 
hours and made many commitments to the Navy and their families. 
It's a unique bond here. The 12,000 family members of the 
Subbase are indeed employees, so we take this very seriously 
from a business community.
    We share a unique value system with the military, and that 
is built on trust and understanding constructed over the years. 
And the synergy is demonstrated through the similar mission and 
vision statements of our respective organizations. And I am 
proud to say that at the Chamber of Commerce board levels we 
are represented by Walch, Captain Ratte, and also Olson from 
the Coast Guard Academy. So we do take that very seriously and 
want to share their leadership and expertise.
    The common visions of the business organizations and the 
military echo with tones of teamwork, leadership, 
communication, and a focus on being a vibrant part, as Captain 
Ratte, however, said, of this vibrant eastern Connecticut 
community.
    You know now that with almost 8,000 military personnel at 
the Subbase and over 2,000 civilians that work here, the 
Subbase is one of our largest employers. Suffice it to say, the 
military has made many contributions that have had a positive 
impact on the economy and quality of life in eastern 
Connecticut. In fiscal years between 1999 and 2003, it is 
estimated that the direct economic impact to our region from 
the Subbase will be $35.5 million. At the Chamber of Commerce 
we take that very, very seriously. It helps us maintain the 
strong and diverse regional economy.
    We are also fortunate that many of the Navy officers and 
personnel choose to remain in the region once they leave the 
services, and we are fortunate that they stay here. They start 
numerous businesses that can contribute, again, to the vitality 
of our economy, businesses such as Sonalyst. And they continue 
to add to that quality of life and quality of place that we 
think is very unique.
    Strong partnerships have developed over time between the 
military and business community. For example, the Military 
Community Council with representatives from social services, 
the clergy, the legal and financial communities, town and city 
officials, and of course the military. This council exists as 
an available resource for the commands and works with the 
military to improve fire protection throughout the area as well 
as improving policing efforts between the military and the 
towns.
    You already heard about military appreciation discounts 
that many businesses in the area provide to the families, but 
in addition one area of business, ShopRite New London, has 
extended that into ``Adopt a Sailor'' program. And the owner of 
that encourages employees to ``adopt'' a sailor, especially 
around the holidays so they are not left alone.
    Our business community has always been very supportive of 
the families of sailors out to sea. Our Groton Division is 
currently working with the Ombudsmen to raise money for the 
creation of a banner that would be used to welcome and bid 
ships farewell. And the Seahorse on the Thames, a local 
restaurant, has offered their dock space for families to 
converge and hang the banner at each coming and going.
    The Chamber itself has been impacted by the military. A 
member of the Chamber staff has had personal experience with 
the local community's support of military families since her 
mother was an ombudsman for one of the submarines, and she 
witnessed firsthand the generosity of the local businesses. 
When planning events for the families, she went to the 
community for donations where she was amazed at the ease and 
pleasure with which gift certificates and services were 
provided and given.
    We at the Chamber try to provide continuity for the young 
and potential future leaders of our community. And through our 
Leadership Program we want to make sure that the community and 
businesses understand the importance of the military. The 
participants of that program are introduced to the key leaders 
in each discipline through a series of discussions, lectures, 
and tours. A daylong session is devoted to understanding the 
unique relationship and synergies between the community and the 
military, as well as the benefits derived from such a 
partnership.
    The program that resonates with the entire community, 
however, is Service Person of the Month. And quite honestly, at 
the Chamber we argue about who is going to be able to present 
that award to the recipient. In conjunction with the Navy 
League, the Chamber of Commerce coordinates this effort to 
honor an outstanding service representative who has 
distinguished him or herself not only through their 
professional achievements, but also through their commitment to 
the community at large.
    Rotary, Kiwanis, and Lions clubs rotate the privilege of 
hosting the honorees, their families, and the commanding 
officers. And local businesses, large and small, provide 
numerous gifts and savings bonds. And as you read the 
biographies of the recipients, it is indeed humbling to 
understand what they can accomplish in 24 hours.
    Their commitment, professionalism, and dedication to their 
respective service are astounding, but it is the volunteer 
roles of these young men and women that provide eastern 
Connecticut with the quality of place that really makes the 
area a wonderful place to work, live, and play. Churches, Big 
Brother/Big Sister programs, volunteer fire departments, our 
schools, and our businesses all benefit from their numerous 
contributions.
    Since we are a business association, we always calculate 
these kinds of services and dollars. And our volunteers at the 
Chamber contribute between $2.5 and $5 million of in-kind 
services to the region. But based on the biographies of the 
Service Person of the Month and over the years, we calculate 
that on an annual basis that is giving back to the economy $20 
million in in-kind services with all the things that they do.
    I am proud to say that this is ``Navy Territory.''
    And I will conclude with the mention of our ``Ship to 
Shore'' program designed to celebrate our region's rich naval 
and maritime history and heritage that started in 2001 with the 
port visit of the USS Caron to Fort Trumbull State Park. That 
is where the State of Connecticut, the Cities of Groton and New 
London, and the Subbase joined with the business community to 
host over 300 crew members, 34 officers and the 14,000 visitors 
who came to our region and to visit the USS Caron. And 
celebrate we did. We had our interfaith service, we did 
baseball games, and we did fishing trips, all at little or no 
cost to those folks wherever possible.
    Proud hospitality and appreciation for the military are the 
legacy of our region and ``Ship to Shore.'' And we anticipate 
we will be able to do that again, and the good Lord willing, 
early in July from other ships.
    Collaboration and partnerships are the hallmarks of our 
region and all made possible through the strong relationship 
between the Navy and the community.
    The continued support of Congress and the Navy to the many 
programs for sailors and their families will ensure that the 
Subbase will thrive and, therefore, the community of eastern 
Connecticut will continue to flourish with their rich and 
numerous contributions. Thank you very much.
    Senator Alexander. Thank you.
    Mrs. Sarah Scott.
    Mrs. Scott. Thank you, Senator. I would like to say thank 
you for raising interest. As you are beginning to tell, these 
are issues that impact Navy families every day. This is our 
daily life.
    I am a Navy wife of 17 years and 2 days, and we have had 
three tours of Groton since 1986. So I have seen the community 
throughout a lot of phases. I am also the newly elected 
president of the Submarine Officer's Spouse Association for 
2003 through next May.
    The Officer's Spouse Association is a social and charitable 
organization. Our main focus and charity up until now has been 
the Dolphin Scholarship Foundation, a submarine supported 
scholarship grant program for submarine officers and their 
dependents. We hope this year to do charitable work, especially 
in the area of volunteer opportunities in the community.
    My focus and my interest as it pertains to this committee 
is certainly the educational problems and challenges that are 
met by military children. I met some of them as a military 
child. Military education is certainly a step in the right 
direction to address those challenging issues, moving in and 
out of school districts, statewide testing, things that 
military children face that are probably those things that may 
not come up with children that don't move as much as we do.
    Thank you for coming and thank you for your interest.
    Senator Alexander. Thank you.
    Mrs. Debbie Estes.
    Mrs. Estes. I am excited about the opportunity to speak 
with you today and thank you for inviting me. This is such an 
important opportunity for Navy families, and I hope to share 
with you a little bit about our life and our experience here at 
the Subbase in Groton/New London.
    I married my husband almost 7 years ago in Norfolk, VA, 
knowing absolutely nothing about the military lifestyle. All I 
knew was the uniforms looked cool and they used a lot of 
acronyms. Almost immediately after getting married we reported 
to Subscol here in New London. The opportunity to become an 
ombudsman for Subscol arose, and my husband mentioned it. 
Having no clue what I was in for, I interviewed and was 
selected. Life changed at that very moment for me, and let's 
just say that my adventure began. I have been an ombudsman 
since then; first for Subscol and currently for the USS AUGUSTA 
and also the Assembly. I remember how I felt in Norfolk, how 
lost and confused I was, and decided then that no new spouse 
under my command would feel that way.
    The ombudsman is the official link between the command and 
the families. We relay official command information to the 
families and then represent the families and their issues or 
emergencies to the command, especially when the command is at 
sea. It is our job to disseminate information and to empower 
the spouse to resolve her own problems with our guidance along 
the way. There is no better feeling than hearing the new 
confidence in a spouse's voice after she has resolved the 
current emergency.
    As the assembly chairman for this region, I work with 
others to provide support for the ombudsman. Along with the 
Fleet and Family Service Center, we provide training for the 
ombudsman, and bi-annually we have Ombudsman Basic Training for 
new ombudsmen and Command Support Team spouses. I also relay 
information from Base Quarterly meetings to the ombudsman for 
their families and assist the commands in recognition of their 
ombudsman. I maintain a roster, publish a quarterly newsletter, 
and instruct at Ombudsman Basic Training.
    Being an ombudsman has made me a stronger Navy wife and has 
made it easier to deal with obstacles thrown my way. Our 
lifestyle is stressful and is often hard to understand in the 
civilian world. People often ask ``Why put yourself through 
that?'' The smile on my husband's face when he steps on the 
pier and sees his family waiting for him answers that.
    Some of the obstacles we encounter as Navy family's spouses 
can be overwhelming at times. I can honestly say there is not a 
lot that we cannot handle. We maintain households, keep our 
spouses organized, and we raise our children alone while our 
husband is at sea.
    We are very good at holding Christmas in July due to an 
upcoming deployment schedule. My recent tour as a spouse on my 
boat has opened my eyes to a new aspect. The day after the boat 
left my Expedition broke down. And although it was minor the 
fear of something happening to it as it was being towed away 
and not having my husband here to make that decision was scary. 
But that was nothing compared to giving birth to my daughter in 
an ambulance in front of my house in the middle of the night 
with my husband at sea and knowing that with his deployment 
schedule he would be home for 12 weeks her first year. I have 
been through surgery without my husband, but that was nothing 
compared to the feeling of who would take care of my children 
if something happened. We had several wives who have had 
surgery, have bought houses and have had to move alone, 
sometimes relocated alone due to innate housing reconstruction. 
They have purchased vehicles, taken long road trips with 
screaming children, and suffered the loss of loved ones without 
the strength of their best friend and soul mate.
    Although it seems crazy at times, I don't think any of us 
would trade our husbands' careers, and we support them 100 
percent. Of course ask me that again when my husband has duty 
the day they pull in from a deployment. The nice feeling is 
that no matter what we experience or confront, we have the Navy 
family and our support system to help us. The frustrating part 
as an ombudsman is getting the information out to the wives so 
they know the help is there.
    Upon hearing about this hearing and asking families what 
affects them the most in this area, the issues that were 
brought to our attention were housing, TRICARE, relocating, and 
the educational budget in this area.
    I thank you again for this opportunity. I hope I have 
represented our Navy Subbase lifestyle.
    Senator Alexander. Thank you very, very much.
    If the five of you have time, we would like to take about 
15 minutes or so for questions, and we will ask Senator Dodd to 
start with the questions.
    Senator Dodd. First of all, thank all of you very, very 
much. Captain Ratte, thank you immensely for your leadership 
here and Dr. Mitchell for a wonderful job.
    This is really a model in many ways, what goes on here, Mr. 
Chairman. You will understand the certain sense of pride in my 
State and district. I think we have demonstrated tremendous 
growth over the years and the wonderful job of serving our 
families and serving, obviously first and foremost, the 
security and needs of our country, but understanding of course 
the vital role at having a good support system, of what that is 
and meeting the security needs of our Nation. So we are very 
grateful to you, Captain Ratte, and predecessors over the years 
to constantly work and improve the quality of life. I want to 
thank our witnesses, and I should point out good friends. 
Clegg, it is not that common of a name. My wife's maiden name 
is Clegg, so we may be related through marriage. That is what 
Jackie says all the time.
    Let's get right to it. Obviously having a hearing here we 
have seen a wonderful facility and a tremendous job being done, 
but obviously there are areas for improvements to be made. And 
I have read the e-mails, Debbie, that were sent to you. And I 
presume those are just some of the reactions you have had. I 
have read them. They are issues I was going to raise; the 
housing, TRICARE, moving, the education, transitional questions 
that go on. So let's start right in. If you will tell me about 
those issues, get more specific with us if you can so that--I 
presume these are not unique despite all our efforts being 
made. I presume, Mr. Chairman, it is the kind of things you 
have heard about as well. Tell us what the problems are. We saw 
the Polaris housing complex, what is being done there, but how 
much more needs to be done in this area. And then the health 
care issues, women's health, which I have read in the e-mails 
to some of them is a major, major concern. They may be closing 
down some of those facilities, and how important that may be. 
And then quickly run through the other issues.
    I want you to feel free to do this expeditiously. When 
Debbie gets through, Dr. Mitchell, if you would like to 
comment, or Dr. Ratte, to something that was said, don't wait 
for my question. Let's get a good conversation going through. 
Identify yourself here as a speaker for purposes of the record.
    Mrs. Estes. I would like to start with some of the e-mails 
that I received regarding TRICARE. It is the closing of the 
Women's Health Clinic. The Women's Health Clinic enables a 
spouse to see the same doctor that generally cares for them and 
is able to follow all the progress. Not saying anything bad 
about the family practitioners, but the family practitioners at 
the Primary Care Center do not specialize in female medicine. 
We do have a referral system which enables us to refer out, but 
then you have to start over with a brand new doctor, go through 
your history again. And that is after two to 3 months it takes 
to get in, because the doctors are so busy and booked because 
our clinic has been closed. We also recently lost our ENT 
doctor, ear, nose and throat. We have been told it will take 
approximately 3 months to replace him.
    Some other issue--another issue that came up was--sorry. 
One of my boat wives specifically has a son with a neurological 
impairment which is unspecified. The doctor has ordered a 
sensory integration evaluation. There is not a provider in this 
area for that type of service, so she is having to call around 
to try and find someone. And the one doctor that she has 
contacted that can help her is not enrolled in TRICARE and is 
having certain difficulties becoming certified as a TRICARE 
provider. A lot of our clinics have been closed, so we do refer 
out a lot.
    Another issue with this crazy, busy----
    Senator Dodd. Closed or are they closing?
    Mrs. Estes. I believe they have been closed.
    Senator Dodd. Captain, do you know about this?
    Captain Ratte. There is down from the Naval Hospital 
there's a Naval Care Center. The outpatient type medical 
treatment is all referred now to partner hospitals, generally L 
& M or Backus.
    Senator Dodd. Backus is in Norwich.
    Captain Ratte. Yes, sir. We have also increased our 
partnerships with both those hospitals, with privileges for our 
doctors to conduct surgery, inpatient surgery and outpatient 
surgery, at both of those hospitals, our doctors and their 
facilities on our patients to improve the throughput and 
minimize some of the TRICARE related out-costing or out-
sourcing issues. But there have been a number of clinics closed 
as the facility has grown down in size with a larger depends on 
TRICARE private sector to provide services as opposed to 
Military Medical Center and provider.
    Senator Dodd. How about the housing question. I read some 
of those e-mails. Tell us what the concerns are.
    Mrs. Estes. The main issue in housing is the privatization 
project that is approaching this area very quickly. The major 
concerns with that are the possibility of civilian mixture into 
military housing. How they go about determining rates for usual 
and customary utilities. And a big issue is say, for example, 
you have a chief and an E-4 living next door to each other in 
the same house. The chief could pay $1,300 a month for that 
house, while the E-4 is paying five, $600 for that same house. 
So the ideas that they have come up with is to maybe address 
the fees according to a two-bedroom, a three-bedroom, a four-
bedroom, designed on the house, not just your BAH.
    Senator Dodd. One of the problems. Are there problems with 
that?
    Captain Ratte. Actually, in this particular scenario, 
public/private venture, the cost of housing is BAH. BAH or 
basic allowance for housing is the payback value for rent, 
basic utilities, nominal housing insurance. The types of house 
and where the house is located to a large degree is based on 
size of the family and not necessarily whether a sailor is a 
chief petty officer or officer or enlisted. There could 
conceivably be a situation where a large family--E-5 with a 
large family living next door to an E-7 or an E-8 with a 
comparable size family, with different basic allowance for 
housing values, paying different amounts for the same apartment 
or the same house. However, there is no impact upon the sailor. 
The basic allowance for housing is the going rate for rent. The 
same moneys that the sailor would be providing if they lived in 
the house absent the public/private venture.
    The key issue in the public/private venture is there is no 
change in the out-of-pocket expense for sailors, but we do 
achieve quality homes in the hands of sailors quicker through a 
BAH program. I would say the issues of different cost is based 
upon pay grade. And BAH are really not particularly material to 
the issue, because the sailors will essentially not see that 
money. They will transition that money to the housing 
contractor. And the overall price of the housing contractor or 
what the housing contractor will see is based upon average 
demographic, and that average demographic will then fuel the 
building construction, construction and renovation programs in 
the community. So I think we will see a benefit regardless.
    Senator Dodd. Miss Clegg, I want to raise something with 
you. There have been some issues raised in the past by private 
real estate developers in the area about coming in and 
obtaining key housing. I don't know if this is viable today. It 
was in the past business community about not allowing the local 
real estate development market to actually produce housing that 
would be within the price range being described. Is that still 
an issue?
    Ms. Mitchell. It is a huge issue in the region. As a matter 
of fact, there was a study done by the Council funded by United 
Way about that very thing. And I know I won't get the 
statistics incorrect, but I think it is 5,100 units each year 
for the next 5 years. I may have that wrong.
    Senator Dodd. Sixty-one?
    Ms. Mitchell. Fifty-one. Our region is still growing and 
prospering. We are the last vestage between New York and 
Boston, so there is a housing crunch. And affordable housing 
has been felt by everyone; the community as well as the 
sailors. There is a blue ribbon panel that has been put 
together made up of a number of businesses and larger employers 
who are also faced with that issue, as is the Subbase, because 
we can only retain and recruit to people based on the order of 
housing. Jim Cronen from Dime Savings Bank, the President, is 
the head of that. And really they are pushing forward to look 
at how they can combine their resources to bring in developers 
of affordable housing and make it realistic for our region. So 
it is a severe issue in our area.
    Senator Dodd. Any comments you want to make about this, 
about the last two witnesses?
    Mrs. Estes. No.
    Senator Alexander. Thank you, Senator Dodd.
    A couple of questions following up on the housing that may 
be addressed to Mrs. Scott or Captain Ratte. Maybe you can 
explain this to me. There has been a lot of concern in the 
country about the fact that low pay for men and women in the 
military means that some of them are eligible for food stamps 
or other Federal subsidies. Now, if I have got this correctly, 
the housing allowance is paid--it is a separate or may be paid 
as a separate item, counted as part of the income which 
increases the income level, so that we are proud to say these 
sailors or soldiers are not eligible for food stamps anymore. 
But the unintended consequence of that may be to knock them out 
of eligibility for other Federal benefits that may be helpful. 
For example, the wake payments and the possibility of the 
Federal childcare voucher which would help pay for childcare. I 
am not sure I understand this correctly, and I thought perhaps 
you could help me understand whether in trying to do a good 
thing we may have had a couple of unintended consequences and, 
in fact, knock some of our military men and women out of a 
couple of benefits that would actually be helpful to them. Does 
that sound familiar to anyone?
    Captain Ratte. It does. As a matter of fact, I engaged with 
the Community Support Program leadership last week a similar 
question. The fact that basic allowance for housing will now be 
seen as a portion of a sailor's income will have the perhaps 
unintended consequence of raising that income visible to these 
programs that you talked about, whether it is for women, infant 
care or food stamps programs; plus it will also have as 
income--when determining the combined income levels, to 
determine a child development center based fee structure. The 
fee structure for child development centers are based on the 
combined income of the family. This will result in an increase 
of visible income and may result in an increase in childcare 
costs to a family, despite the fact that the basic allowance 
for housing will be paid directly to a contractor and will show 
up as no more real income in a sailor's pocket.
    Senator Alexander. Was this housing allowance counted as 
part of the income?
    Captain Ratte. No, sir, it was not.
    Senator Alexander. So this is a change.
    Captain Ratte. Yes, sir, it is.
    Senator Alexander. Mrs. Estes or Mrs. Scott.
    Mrs. Estes. I have two children in the program, and a 
constant question that I have is my housing allowance is 
included in as structure in my fees. And like Captain Ratte 
said, we don't physically see that money because we live in 
housing, so it goes where it goes. But I have a thousand 
dollars a month that is included into our income, which bumps 
me to the next highest bracket for childcare. So now I have two 
children, so I am paying, you know, double, $200 a week, which 
is incredibly inexpensive compared to what they have in town, 
but it concerns me with the BAH, with the privatizations 
coming, how that is going to affect everybody.
    Senator Dodd. You are a net loser in that sense of income. 
So you are actually coming out behind----
    Mrs. Estes. Yes.
    Senator Dodd. --as a result of the increase in pay due to 
the housing.
    Mrs. Scott. I have heard a lot of comments about this 
problem recently, and it is a very big concern for the 
families.
    Senator Alexander. Dr. Mitchell, you made two or three 
suggestions here that attracted my attention. I wonder if you 
want to comment more about them. You said you would like to see 
longer tours of duty for military personnel with school-age 
children, no relocations for personnel with students in grades 
11 or 12, and reciprocal agreements between states and school 
systems serving military families with school-age children.
    Can you comment on that a little more.
    Mr. Mitchell. Yes, sir, I can. The longer tours of duties--
this has actually been an improvement over the last--during my 
brief career during the last 30 years in the district, sailors 
assigned to the Subbase with families shorter tours of duty. 
And over the last few years they have been able to increase 
those tours and some instances where youngsters were not pulled 
out of school, because families had to move in September or 
October or February or March as an example. Now, we are very 
pleased that tours now are at least beginning to let families 
move in here so that they can begin in August or sometimes in 
January. So that is my reference to longer tours of duty.
    The issue that is critical to all youngsters is that they 
are earning credits for graduation, and when they are moving 
across the country, local and State requirements are not the 
same. That also refers to reciprocity. For instance, when they 
were doing a roundtable in Georgia, for instance, as an 
example, a student moving into Georgia is required to take 
Georgia history. At any time a student moves in that State as a 
senior might be required to take that history as a graduation 
requirement. If that has changed that is great, but for a 
military family moving into Connecticut as a senior and then 
Connecticut history, as an example, is required when the 
youngster has already accumulated 24, maybe 30 credits through 
moving, that puts a tremendous burden on the family if they do 
not time that correctly. So the reciprocity issue is one where 
I am looking at states working closer together so that we can 
accept Connecticut history, as an example, as a requirement in 
another state; Rhode Island as an example. That is the 
reciprocity issue in the simplest terms. Again, 11th and 12th 
graders.
    And I know it is almost impossible, but as I advocate for 
military families and children, on average a military family 
moves five or six times during a high school career, and that 
is a very big transitional issue which the families have to 
deal with and are dealing with. But as an educator those are 
the kinds of requests that I see would help military families 
and youngsters in completing their high school requirements.
    Senator Alexander. Mrs. Scott.
    Mrs. Scott. I have never before heard it suggested that the 
Navy would provide such a fabulous benefit as to not move me or 
my children in 11th or 12th grade, but I must say that would be 
a fabulous incentive to, say, anybody with seniority that have 
children that old would be very interested in a program like 
that. Barring that need--they interrupt that, but barring that 
reciprocity between school systems is a really important issue. 
Like Dr. Mitchell said, graduation requirements can vary 
widely. And it can be a nightmare when you need to move your 
children their junior or senior year and find out that they are 
not going to have enough credits to graduate because they don't 
have Connecticut history or Georgia history or other things 
school boards come up with across the country.
    Senator Alexander. Address that.
    Mrs. Estes. I don't have school children that age. Mine are 
younger. But I can just imagine the stress these young kids are 
going through. It is stressful enough to move away from friends 
and trying to establish a new support system and then the added 
stress of oh, my gosh, I have 6 months in the school year and 
three courses I don't have so that I can graduate on time.
    Senator Alexander. Well, that is very helpful.
    Now, we have run over our time, and we surely haven't run 
out of questions. But I think we will bring this formal part of 
the hearing to a conclusion, with great thanks to you and to 
the community, especially, Captain, to you and your team for 
hosting this today. This isn't the end of our interest in the 
subject. As I mentioned we have a hearing scheduled for June 
24th in Washington which Senator Dodd and I will be involved 
in, along with ranking member and chairman of the Personnel 
Committee of the Armed Services Committee, as well as other 
senators. So any additional thoughts you may have we can accept 
until then. And I am going to suggest--Senator Dodd and I have 
been talking about this. We can keep this book open for a 
while. And I would like to do that, because this needs to be a 
work in progress process. As we put the spotlight on our men 
and women who are serving away from home, we need to keep the 
spotlight on home as well. Homeland security begins at home.
    You are going to be coming up with ideas, and let me be 
specific about one, Dr. Mitchell. I am very impressed about the 
work all of you have done on the Conference on the Military 
Child. You are now in your fifth year. As I understand it you 
are having a conference in July here. The more I listen, the 
more I hear about reciprocity, Senator Dodd was making 
suggestions to you about that a moment ago. There are a number 
of things, whether it is childcare certification for those who 
might be able to care for five or six children in their homes. 
It takes a long time to get certified in Connecticut to be able 
to do that, whether it is graduation requirements as you go 
from one placement to another. I would invite you in your work 
together on the military child to identify areas of reciprocity 
that would make the most difference to military parents raising 
children and then tell Senator Dodd and tell me, and we can 
work together with the Congress and maybe we can speed that up. 
Some of it might be able to be done by changing Federal law, 
but some of it might be done simply by urging states to create 
interstate cutbacks and recognize four, five areas of 
reciprocity that would make the most difference to military 
families.
    In Tennessee I believe that four families went to the 
legislature and said would you do this on child care and this 
on graduation requirements. I think they would be quick to try 
to do it, and I imagine that is so in many other states. Think 
of us as an ally as you hold your conferences each year, and 
particularly on the areas of reciprocity we might encourage. I 
would invite you to suggest those to Senator Dodd, and he will 
give those to the full committee, and we will do what we can 
with that.
    I will ask Senator Dodd to make the closing remarks, but 
thank you very much for your time, and your openness, and your 
constructive suggestions, and thank you for your service.
    Senator Dodd. Again, I thank Senator Alexander for being 
here. It is truly an honor having a colleague in Connecticut, 
and I am very grateful to him for taking the time away from his 
own State to come up here to be with all of you.
    We may submit some additional written questions to you and 
then have you submit any additional evidence you think 
worthwhile for the committee to have. We will keep this open to 
add to it.
    We didn't get into--a little bit into the moving issue, but 
I know that is a traumatic event, moving families around, 
Debbie, as you pointed out, Sarah, it is truly traumatic. It is 
hard enough when you have to do this as many times. It is such 
a disruptive and such a traumatic event to uproot them in 
critical moments, to pick up again and plop down. It is 
terribly traumatic. So I would be very interested in ways in 
which we can minimize the stress on moving, because education 
plays a role in it, housing plays a role in it. The child is 
affected in all of these issues around moving, because we 
demand so much of you.
    We may be demanding more in the years ahead as we shrink 
the size and the number of bases around the world and having a 
highly mobile military that can move around quickly where they 
have to be, I suspect you may see more of this stay longer 
where you are, but more moving involved over the career.
    And I am also very interested in the notion of how many of 
our military today are the sons and daughters of military and 
how critically important it is if we are going to retain the 
future needs of a professional military willing to make this a 
career not for the 2 years or 4 years or 6 years, but for that 
20, 25 years or more. It seems we need to look to the school of 
your children and your daughters to be the future of our 
military or at least play a significant part in that 
constituency.
    How are we doing about tracking the sons and daughters of 
the military?
    I regret we didn't have some time, but I would be 
interested in listening to your children talk about being a 
teenager here; what they have to say. I think we might get some 
interesting observations and some good ideas coming from young 
people about how we can do a better job. Not perfect. Kids are 
kids. But listen to some of the basic ideas at the table. I 
find they have some awfully good ideas at high school forums. 
Young people who know how to see through everything and come up 
with ideas. We would be interested in hearing from them as 
well.
    But I am very proud of all of you. I can tell, Captain 
Ratte, over the years part of our submarine force, it has been 
a great contribution, obviously, to our southeastern 
Connecticut, to the State of Connecticut, but most important to 
the country. And we saw that again in the recent events in the 
Iraqi freedom conflict, and the role that the submarine force 
played in that incredibly successful military operation. I know 
some of those ships are coming back into home port and being 
received by the families here. But we have determined a deep 
sense of pride and gratitude to the men who manned those and 
the tremendous job they have done and to the families who have 
been so supportive of their husbands, and sons, and fathers 
during this particular time. So we thank all of them for, once 
again, serving this country in such a fine way. And again, 
thank you, all of you, for participating and, Chairman, we 
thank you.
    Senator Alexander. Thank you very much. The hearing is 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

               Prepared Statement of James E. Ratte, Jr.
    Mr. Chairman and Senator Dodd, welcome to Groton, Connecticut, the 
submarine capital of the world, and Naval Submarine Base, New London, 
the home of our submarine force. Thank you for visiting and allowing me 
the opportunity to speak to this subcommittee about the Sailors, 
families and community of the first, and what I believe is the finest, 
attack submarine base in our Navy. Today marks my tenth month as 
commanding officer of this base. I asked for this assignment, I got it, 
and like my predecessors, I consider the opportunity a great privilege.
    From that original foothold along the flat eastern terrace of the 
Thames River some 134 years ago, to our designation as the Nation's 
first permanent continental submarine base in 1916, to today--this base 
has grown in size and mission. We now occupy more than 687 acres with 
some 250 buildings and more than 70 tenant commands. Currently, we 
homeport 17 submarines; 14 LOS ANGELES Class attack submarines, two 
SEAWOLF Class attack submarines and NR-1, Navy's only nuclear powered 
deep-diving research submarine. Commander, Navy Region Northeast and 
Commander, Submarine Group TWO, as well as Naval Submarine School, the 
center of excellence for the training of our Submarine Force, are all 
located here. Additionally, the base will host an establishment 
ceremony for our newest tenant activity this week. Friday, the recently 
created Submarine Learning Center, in charge of all submarine training 
commands nationwide, will officially stand up. We expect further new 
additions in the years to come. We are looking forward to Naval Inshore 
Boat Unit 22 as well as the New Haven and Plainville, Connecticut Naval 
Reserve Centers consolidating their activities and moving to the base 
later this year. We are also readying our waterfront to support new 
VIRGINIA class submarines--the first of which, USS VIRGINIA, will be 
christened at Groton's Electric Boat Shipyard this August, and 
commissioned in 2004.
    Submarine Base New London's focus, however, extends beyond those 
national assets stationed on our waterfront and the tenant commands 
that support them. Our mission remains supporting fleet readiness by 
providing quality service and facilities to our submarine community and 
their families; they are the true heart of our base. We are home to 
more than 7,500 military personnel and 12,000 military family members. 
We also support more than 1,400 civilian employees, 1,000 defense 
contractors, 600 drilling reservists, and 12,000 military retirees. Of 
our military population, 35 percent are married and four percent are 
single parents. As we have a large, young and single Submarine School 
student population, 40 percent of our Sailors live in barracks while 25 
percent live in Navy family housing and 35 percent live in the local 
community. But, no matter their marital status, or where they live, 
internal and external support networks ensure that they are not only 
part of our local Navy family, but partners in our southeastern 
Connecticut community.
    Every day, I am privileged to hear and see more and more examples 
of our Sailors, Department of Defense (DoD) civilians and military 
families contributing to the vibrancy of the southeastern Connecticut 
community; contributions from some 1,500 personnel annually and 
spanning more than 40,000 volunteer hours. Their generosity, warmth, 
and caring help make the Groton-New London area a wonderful place to 
live. It is through their generosity that Naval Submarine Base, New 
London's, annual charitable contributions to last year's Combined 
Federal Campaign totaled nearly $320 thousand. Through their warmth, 
Sailors across the base have been working alongside members of the Navy 
League in our annual Toys for Children drive. Through their caring, 
Sailors teamed with scouts in the Navy Caring and Sharing program, 
which, this past year, collected more than 2,200 items of food for 
needy families. Sailors, DoD civilians, and military families, offer 
volunteer service to organizations such as, American Red Cross, the Boy 
Scouts and Girl Scouts of America, Big Brothers and Big Sisters, and a 
myriad of others. Our volunteers also support local schools and 
educators in developing our Nation's most precious resource, our young 
people, by participating in mentoring programs, such as Junior 
Achievement, as well as partnerships established through the Navy 
Community Service program. I participate in the Eastern Connecticut and 
Groton Chambers of Commerce and the Council of Governments to share our 
respective visions and build closer bonds and understanding between our 
collective communities. Of course, it is more than a good business 
foundation or a strong local economy that makes a good community. Good 
neighbors make a good community; and the people of southeastern 
Connecticut have long been, and continue to be, wonderful neighbors to 
the Navy.
    The Groton Public School system has long recognized the uniqueness 
of the military child. The school system and former administrators 
helped spearhead the Military Child Education Coalition--a national 
organization committed to bringing military and local communities 
together with school districts to best address the needs of the 
military child. Next month, the coalition will be holding its fifth 
annual national conference here in Groton. On a local level, every 
fall, Groton Public Schools invite us to provide a ``Military 101'' 
briefing to new, and otherwise interested, teachers. The briefing is 
aimed at familiarizing these educators with the military environment, 
military life, and the benefits and challenges associated with being a 
child of a military member. The school superintendent also holds 
monthly meetings of the Military and Superintendent Liaison Committee 
that allow military representatives from our major local area commands 
to maintain an ongoing dialogue with senior educators and 
administrators.
    Southeastern Connecticut businesses, large and small, have always 
welcomed service members and their families, offering a wide variety of 
discounts and special programs to show their appreciation. On an 
organized level, the Eastern Connecticut and Groton Chambers of 
Commerce support our Sailors and families through such initiatives as 
the Service Person of the Month. The program honors Sailors nominated 
by their command who have contributed to the success and betterment of 
their unit and the community. Honorees are celebrated with a special 
luncheon as well as tokens of appreciation from area businesses and 
organizations. At the end of the year, the Chambers select a Service 
Person of the Year from among the 12 honorees. The Navy League sponsors 
a similar recognition program for the Sea and Shore Officers of the 
Year. Local area commands nominate candidates who have also contributed 
to the success and betterment of their unit and the community.
    While such external support networks assure our Sailors and 
families of their partnership in our southeastern Connecticut 
community, our internal support networks assure them of our commitment 
as one Navy family. Chief of Naval Operations, Admiral Vern Clark, has 
said, the quality of service our Nation and Navy can expect from our 
Sailors is directly related to their quality of work and quality of 
life. Providing Sailors with the highest quality work environment in 
which to achieve their goals and accomplish their unit's mission is a 
priority of each tenant command and activity here. Providing the 
Sailors and families of those commands and activities with the highest 
quality of life is a priority of the base and our parent command, Navy 
Region Northeast.
    Tenant commands, activities, Sailors and families are the 
customers, as the base and regional quality of life storefronts are the 
service providers in such areas as housing, health care, and Sailor and 
family support. Base housing includes 12 barracks with more than 1,650 
rooms accommodating nearly 3,300 personnel and more than 2,100 Navy 
family homes. The vast majority of those Navy family homes occupy 430 
acres outside the base fence-line in the town of Groton. Currently we 
have some $20 million dedicated to Navy housing improvements, as we 
complete whole-house renovations in our Conning Towers and Nautilus 
Park Navy Family housing areas. Such improvements will continue through 
2006 with the privatization of Navy family housing and the renovation 
and replacement of more than 1,400 homes.
    Our commitment to the finest health care facilities continues as 
evidenced by our recently begun 4-year, $17 million, renovation of our 
Naval Ambulatory Care Center. We will also start construction of a new 
dental clinic in 2005. While our health and dental facilities are only 
clinics, our doctors have surgical privileges at local hospitals 
through a memorandum of agreement. Of course, we are also committed to 
getting the word out about health care and receiving feedback. To that 
end, the care center hosts monthly TRICARE orientation classes for 
active duty personnel and their family members. Classes focus on the 
TRICARE system in Groton and help familiarize members with the 
availability and accessibility of services both at the center and in 
the civilian community. Additionally, the care center hosts periodic 
Health Care Consumer Council Meetings to keep commands and their 
representatives informed of policies at the center and to learn of any 
concerns or issues regarding the services provided through either the 
center or through TRICARE. Sailor and family member support are met 
through a broad spectrum of local providers.
    While unit chains of command, especially command senior enlisted 
advisors, like command master chiefs and chiefs of the boat, and the 
base command religious program and its chaplains, are always accessible 
and responsive to Sailor and family needs, the bulk of front line 
support is provided by our Fleet and Family Support Center and child 
development program. A regional storefront, our Fleet and Family 
Support Center is committed to empowering military members and their 
families to thrive amidst change, to find positive opportunity in it, 
and to solve any problems or crises that may affect their ability to 
succeed while in the military.
    The center serves both active duty and retired personnel and 
encompasses the Navy ``family'' of singles, married members and their 
spouses, children and other family members. The center's services and 
programs meet the diverse needs of each customer, such as: acquainting 
single Sailors with local leisure activities, helping expectant parents 
prepare for parenthood, assisting transitioning members in conducting 
successful career searches and educating spouses, and other family 
members, on job search skills, available Navy services and the 
deployment cycle. Fleet and Family Support Center staff are intimately 
aware of the unique pressures and problems experienced by Sailors and 
are trained and equipped to help them and their families realize the 
greatest rewards from their military careers and lifestyle through a 
combination of free services, which include counseling, workshops, 
programs and briefs, as well as self-help and automated services. The 
center provides information about child development, parenting, 
continuing education, career development, basic skills for living (such 
as budgeting and consumer affairs), and a variety of other topics. Help 
for special needs families is also offered and includes classes for 
single parents, families with handicapped family members, and more.
    Another regional storefront, our base Morale, Welfare, and 
Recreation Department, manages our local Navy child development and 
youth programs. The childcare and development program supports two main 
needs: day care and before and after school care. Care is available for 
the families of active duty military personnel, on a priority basis, 
and to the families of DoD civilians employed on the base. Fees are 
based on total family income and are set on a sliding scale. Our day 
care program enjoys the distinction of being accredited by the National 
Association for the Education of Young Children. Our three child 
development centers provide care for children from six weeks through 
six years of age. Having opened a new center in 2000, and renovated 
another in 2001, we have the capacity to accommodate 263 children.
    We also support a Child Development Home program. Through the 
program, childcare providers in Navy housing enhance and expand 
childcare services beyond that available in our local childcare 
centers. Under the program, providers are certified within state and 
Navy guidelines, requiring several hours of initial and ongoing 
training in child development and related topics. Children are cared 
for in safe, happy and healthy home environments.
    Before and after school care is offered under our School Age Care 
program, which is headquartered in our Nautilus Community Center, in 
Navy family housing, and currently provides care to 114 children. The 
program was the second in the Navy to be accredited by the National 
School Age Care Alliance, receiving this distinction in 2002. Open to 
children from kindergarten through sixth grade, five to 12 years of 
age, the program currently serves students enrolled in the four Groton 
elementary schools adjacent to our Navy family housing areas, as well 
as three others. We have established a partnership with the Groton 
Board of Education to provide children in our School Age Program with a 
dedicated classroom located at adjacent Pleasant Valley Elementary 
School. Within the partnership, the school provides a classroom; we 
provide the care and care givers, and the program there is available to 
children outside our active duty and DoD families.
    In addition to child care and development programs, our Morale, 
Welfare, and Recreation Department directs and supports a wide array of 
youth programs and activities. Our new 17,000 square-foot Youth Center, 
centrally located in Navy family housing, opened in 2000. It includes a 
teen lounge, a supervised Internet-equipped computer room, a music 
room, a dance room, and a gymnasium. From the center and its 
surrounding athletic fields, we support military community youth 
football, soccer, basketball, and Little League baseball. ``Kids 
Karnival,'' a two-day family festival held at the Youth Center in the 
spring, and open to the public, has brought our military and local 
community together for the past 12 years, as more than 6,000 children 
and adults annually enjoy the rides, games, and entertainment. The 
center is also the main site for our youth summer camp programs, which 
offer traditional sports activities to the children of active duty 
members and DoD employees, as well as such diverse pursuits as, 
gymnastics, judo, archery, dance and drama. The Youth Center, as well 
as many of our Morale, Welfare, and Recreation Department's facilities, 
allows our military and local communities to participate together in 
fun activities like youth birthday parties or high school post-
graduation parties. We support from four to seven organized, 
chaperoned, alcohol-free, all night graduation parties each year. 
Additionally, our laser tag gaming facility, Laser Storm, hosts 21 
youth parties weekly.
    Of course, the greatest celebrations Naval Submarine Base New 
London hosts are our submarine homecomings. Each one is very special 
for Sailors returning home and their loved ones awaiting their arrival. 
Helping families prepare for this emotional day begins well before 
Sailors deploy. Deployments are unique to the military lifestyle; our 
approach to assisting families cope throughout the time on patrol is 
comprehensive. Our Fleet and Family Support Center provides educational 
workshops and counseling to introduce families to the emotional cycle 
of deployment and how to maintain healthy family relationships amidst 
lengthy separations. Children's programs teach children about 
deployment and teach parents how to help children adjust to the lengthy 
separation. We assist schoolteachers, administrators, and counselors as 
well as community agencies by providing guidance and awareness of our 
network of services. With the outbreak of war, the center's Child 
Counselor initiated a ``Helping Children Deal with War'' outreach 
program involving eight local schools. The program was extremely well 
received and helped prepare school professionals to address our 
children's fears during this time of world uncertainty.
    Our team of senior enlisted advisors on the submarines, the chiefs 
of the boat, volunteer command-appointed Ombudsmen, and our center's 
deployment specialist, maintain an always-accessible network of 
support. This triad, along with a unit's spouse support group, ensures 
that families requesting or requiring assistance in problem solving and 
crisis management, before, during, and after deployments, are able to 
receive it.
    The southeastern Connecticut community provides outstanding support 
to our Sailors and their families during deployments. Recently, many 
local businesses joined with our Navy Exchange and Morale Welfare, and 
Recreation Department in celebrating our submarine Sailors returning 
from Operation Iraqi Freedom.
    Current Navy and southeastern Connecticut support networks for our 
Sailors and their families are a model of care, cooperation, and 
collaboration. Our Child Development Program is operating under Most 
Efficient Organization guidelines that concentrate on fiscal and 
management efficiencies. Our Fleet and Family Support Center is 
undergoing a functional assessment that will ultimately result in its 
operation under those guidelines as well. Anticipated growth on base, 
in terms of new tenant and homeported commands, as well as increasing 
support requirements to other local Department of Defense commands and 
units, may challenge our ability to continue providing ample high 
quality support services. Continued strong support from the Congress, 
and DoD and Navy leadership, for robust and flexible Child Development 
Programs, Fleet and Family Support Centers and our many Morale, 
Welfare, and Recreation Programs, will ensure that Naval Submarine 
Base, New London, has the resources and programs necessary to fully 
meet our mission: service and support to our war fighters and their 
families.
    The Sailors and families of Naval Submarine Base, New London, have 
an outstanding support network. Our internal Navy programs ensure they 
feel the embrace of our one Navy family and our southeastern 
Connecticut partnerships ensure that they feel at home in the 
community. Retaining an effective and responsive support network will 
contribute significantly to Naval Submarine Base, New London's ability 
to continue living up to our motto: ``The First and Finest'' attack 
submarine base in the Navy.
E-Mails to Mrs. Debbie Estes, Ombudsman USS Augusta/Submarine Group Two 
                          Chairman--June 2003
    The following is a compilation of e-mails from submariners' wives 
sent to Mrs. Debbie Estes, Ombudsman, USS AUGUSTA/SUBMARINE GROUP TWO 
CHAIRMAN in preparation for the field hearing at Naval Submarine Base 
New London. The e-mails highlight specific examples of quality-of-life 
issues raised by Navy families. The senders' identities have been 
removed.
                                 ______
                                 
    Dear Ms. Estes
    Thank you for your continued representation as the Chairman 
Ombudsman for Submarine Group Two.
    My husband is currently attached to the USS Dallas as the 
Independent Duty Corpsman. He has been active duty for 15 years. I have 
been a navy spouse since 1992. I also served for 6 years on active duty 
as a navy hospital corpsman from 1990-1996. My overall experiences as 
both a hospital corpsman and a navy spouse have been fulfilling and 
rewarding.
    I have two issues I would like to place before the Senate 
Subcommittee.
1. Navy Spouse Employment
    One of the most difficult issues for me, as a navy spouse, is 
maintaining and advancing my professional career. At my husband's last 
command, I was employed as a civil servant, GS9, for the Naval 
Hospital, Naples Italy. Upon my return to the Untied States, It took me 
6 months to find a comparable job. Luckily, I was able to collect 
unemployment benefits because I was returning off of federal civil 
service from a foreign country.
    My husband is on a 3-year sea/ shore rotation schedule. In fitting 
with the needs of the Navy, we do not always have the choice where to 
live. If we receive orders within the United States, I will not be 
eligible to collect unemployment benefits because I will voluntarily 
release my job. The loss of my income for 3-9 months invariably creates 
a fiscal and emotional hardship on the entire family.
    I propose that the U.S. Government vote in a federal law allowing 
active duty military spouses to collect unemployment upon receipt of 
orders locating to a different state.
2. Navy Spouse Retirement
    I have been working since the age of 17. With the exception of 
social security benefits, I have no other retirement. I lose matching 
contributions from companies because we do not stay at commands long 
enough for me to reap the benefits of a company sponsored retirement 
plan.
    I understand that Navy Commands set up financial education classes 
and assistance to help with investing and budgeting. I feel that navy 
spouses require more attention given to their retirement needs.
    I propose the development and implementation of an education 
program aimed specifically at helping navy spouses get the most out of 
their retirement investing. This program should address the issues of 
recognizing the importance of retirement saving, investment, tax 
sheltering and how to handle moving from job-to job.
    I propose the establishment of a military spouse retirement plan. 
The plan could be managed through the Thrift Savings Administration. 
The U.S. Government could match up to a certain percent of monies 
submitted by spouses in payment and gratitude for the countless hours 
given in the service to our country by assuring the stability of our 
families and the wellness of our spouses as they perform their duties.
    Thank you for hearing my concerns and proposals.
                                 ______
                                 
    Dear Debbie,
    Congratulations on being asked to speak at the Senate Hearing. We 
couldn't have a better representative.
    I know I'm a day late. I apologize. Getting ready to leave tomorrow 
for about 10 days, then we'll be moving soon after, so lots of plates 
spinning in the air.
    I wish I had more time to give you a more comprehensive response, 
but I'll hit some points in the hope that they may prove useful.
    As we get ready to make yet another move, one ssue that comes to 
mind for me are related to schools. Jacob will be entering 5th grade, 
and this will be his 5th school. His younger brother Samuel will be 
entering 3rd grade. This will be his second elementary school. School 
is a big issue for many, and seems to only get bigger as the children 
get older. The following are some thoughts on schools and some other 
issues that come to mind:
    Figuring out new curriculums and school routines can be pretty 
overwhelming, but sometimes the hardest part about being a new kid is 
simply finding someone to eat lunch with or play with at recess. That 
can be the most stressful part of a new kids day. Having a buddy system 
at the school can play a big part in helping a kid feel welcome and cut 
down on the anxiety that comes with not knowing things like how the 
lockers work, or what the routine for gym class is, etc . . .
    Community outreach to military families can truly help make the 
military family feel at home in a community. Yes, we have our own 
community amongst ourselves, but it feels wonderful to feel included in 
the community at large. We have found that Portsmouth Naval Shipyard 
and the surrounding towns work hard to do this. They reach out to 
sailors and their families by ``adopting'' a boat that's in the 
shipyard. The town and boat then interact to show each other their 
worlds, and let each other participate. This can mean parties, parades 
and other special events. Can't tell you how good it feels to be 
celebrated like that! That translates into better morale and great 
publicity for both the town and the military.
    Military families are resourceful when it comes to finding out 
about their communities, but more outreach from the civilian sector can 
make us feel welcome and help us find opportunites even quicker.
    Hire a military spouse. Their ability to adapt and cope with 
changes can be a real asset to companies and businesses.
    Why don't we make it easier by making a standard date for 
acceptance to kindergarten, rather than every school district/state 
determining the ``cut-off date"for kindergarten. This is particularly 
disruptive for families moving in the middle of the school year. Johnny 
may be accepted as a Kindergardener in Hawaii, but not in Kansas.
    End of year testing can be problematic, esp. when one of the 
subjects the students are supposed to know is that particular state's 
history. Hard to catch up on that, esp. when moving in the midst of the 
school year.
    So, Deb, there's my quick 2 cents worth. I'll be eager to hear how 
it goes, and what kind of feedback you receive.
    Thanks for putting it out to us all.
                                 ______
                                 
    My gripes with the government are the following:
SST Benefits:
    As a Navy spouse, I have followed my husband through his career 
(and therefore moves). The result of this is that my Social Security 
Benefits have lapsed and I no longer qualify. My Multiple Sclerosis is 
progressing and I can no longer work--I am trained to be a math 
teacher. Due to the nature of my illness, I do not always know if I 
will be mobile on any given day. This makes it difficult to hold down a 
job, unless the employer is extremely flexible.
    For my situation, I was working at a Navy campus before my husband 
was transferred to England. I finished up the teaching term and moved 
over seas. Upon our return to the states, we choose to have me stay 
home with our children not knowing that I would be giving up my 
benefits.
    Because the Navy transfers military personnel every two to four 
years, it makes it difficult to keep up a career and therefore 
benefits. I feel that one possible solution would be to add a year of 
eligibility on to the spouses eligibility status after each move.
    This situation not only exist for military spouses, but also for 
civilian spouses that choose to stay at home during their children's 
preschool years. I think stay-at-home parents should have their 
benefits still intact when they are done raising children. Children do 
better if there is a parent supporting them at home not only as babies 
and toddlers, but all through the school years!
    I had full benefits prior to starting a family, but because we 
opted to have a parent at home I no longer qualify for the benefits I 
earned.
MV:
    My husband and I have moved nine times in fourteen years to support 
his military career. Although he is allowed to keep his old drivers 
license, I have to change my to the new state. This is true of vehicles 
also. I am not a big fan of the DMV's around the country: it is not 
unusual to have to go back to a DMV station more than once for reasons 
beyond the applicants control. With having to find new schools, new 
doctors, new dentists, a new church and everything else that goes along 
with moving; why not have a military drivers license and military 
plates (tags). Why can't the military members and spouses be added into 
the government system of licenses and plates? And that would eliminate 
at least one hassle to each military family that has to move.
                                 ______
                                 
    Deb,
    I can only think of a couple of issues of the top of my head.
    I am concerned about them privatizing housing. The rumor is if they 
do that our BAH will be taxable and that will put us in a higher 
taxbracket. It will mean that military families who qualify for special 
services such as daycare because of their low income will no longer 
qualify.
    I am also concerned with the waning quality of care provided at the 
NACC. Every month they change the services they are willing to provide 
at the NACC. They need to either farm everyone out or increase the 
services they provide. It is impossible to get an appointment in the 
middle of the day or call ahead and schedule an appointment for the 
next day should you feel the case is not emergent but needs looking 
into in the near future. They only want to see critical cases within 
one day or maintenance cases within a week. Life does not work like 
that. I also think that it is sad that they spend 3 hours actually 
working on Wednesday, and the rest of their time training. Why can't 
they train on Saturday? Also why doesn't the pharmacy have normal 
pharmacy hours instead of limited pharmacy hours? Do they want us to 
spend the extra money to purchase our medicine off base on the weekend 
and Wednesday afternoons? Also, why did they get rid of the walk-in 
care? It was continuously busy every time I needed to use the service 
which demonstrates it is a valuable service. So, they cut it?!!??
    Thanks,
                                 ______
                                 
    Deb,
    I received an email from Kate Atkinson w/ your email.
    I am very concerned w/ the situation at the NACC. Our quality of 
care is rapidly being reduced. Everyone knows about the waits at the 
Pharmacy and Lab. Our ENT doctor has been transferred and a relief 
doesn't arrive until August. That means 3 months w/out an ENT 
specialist. Our Gyn doctor is leaving and not being replaced. That 
means many of the dependents who have been treated for serious on-going 
female health issues are now being farmed out into the community. We 
have to start the process all over with a new doctor. That is, if we 
can get a referral from the present doctor, who is so busy I haven't 
been able to get an appt in 3 months.
    Our goverment has begun to recognize that the Military families 
make a huge sacrifice and contribution for our country. They have 
worked hard at improving our pay. Now they must address our health and 
welfare issues.
    Thank you very much for taking the time and effort to represent us.
                                 ______
                                 
    Dear Debbie,
    I have been a NAVY Wife for nearly 13 years and find the hardest 
part to be the separations, as we all do. During deployments I find it 
difficult and sometimes what seems to be impossible to acquire good day 
care. I truly feel like a single Parent. If you don't bring your child 
full time you are out of luck and they want a fortune . . . This is not 
just a Navy problem it is a true dilemma in our society . . . With the 
education system and the child care there are times that it seems in 
this fast paced world seems to put our children last on the money list. 
Our school in Plainfield CT are barely up to state standards and the 
high school is on the verge of loosing accreditation. In one of the 
most highly taxes states in the union this is a very sad state to be 
in.
    Where is all the money they say is in the military budget going? 
Certainly not in our wallets . . . don't get me wrong things are much 
better than when we were newly weds. It is just sad when Chiefs 
families with more than two kids are eligible for food stamps what 
give, certainly I don't claim to have the answers but some where along 
the line I think things definitely got out of control with the federal 
spending and the priorities. When our children and families are last on 
the list we all have a problem and as a parent I am truly concerned.
    As a Navy wife I have seen a lot of stuff come up on deployment. I 
can handle most everything that has occurred on my watch. The young 
wives that have never been alone before this is tuff. When your husband 
is gone four months and then doesn't get home before 8pm or IOpm 4 out 
of 5 days and is called into work on the weekend that is really 
difficult. I know that with advancement comes responsibility but with 
the Military Divorce rate at 70% this is definitely a contributing 
factor. Stress, loneliness and many more factors. This last year has 
been very difficult, 3 transfers and gone 8 months out of the year even 
the most experienced Navy Spouse would find that a very tuff nut to 
swallow . . .
    I guess what I would like to see is some command thought as to the 
people left on shore Lord Knows that we think alot of our loved ones 
out to sea and they think of us but when the sailors are expected to 
work 14-16 hours a day some compensation should be given.
    Good luck in your efforts to get some changes made, I could go on 
forever but I hope that you get the gist of What I think some things 
are that need attention . . .
    Thank you for the opportunity to speak,
                                 ______
                                 
    Deb,
    This from one of our young wives onboard.
    I can give you some feedback based on personal experience.
    1) Housing--I give them a grade of a D. 85% of the housing 
personnel staff are rude. The horrible attitude and treatment we 
received upon our arrival was unnecessary and unacceptable. We felt 
they had judged us before they even knew us. I got the feeling they 
felt all Navy families were low-class and not worthy of being treated 
kindly. It is their job to make the transition to a new place easier 
and they left me feeling more stressed and frustrated than I already 
was being that I had to do the entire move by myself as my husband was 
out to sea. This is not a good feeling when your entire life is packed 
up sitting in a moving van while you wait to have somewhere to call 
home! The housing units themselves are old and ghetto-looking. The 
first unit I was shown I would have not only been embarressed to live 
in but been afraid to live there knowing how much time I spend alone. 
The units aren't as clean as they should be upon move-in either. I 
found mouse droppings, and it looked like the extent of the repainting 
was to brush a few strokes over any holes that had been sheetrocked 
leaving obvious markings on the walls. Even now, when I have to call 
their office my call isn't returned for days. It would be nice to have 
individuals who have experienced Navy life (i.e. moving 4x's in 2 
years) working there because perhaps then things would be different. 
They might be more understanding and willing to help.
    I think that's all being as I could go on and on how hard it is to 
live a normal life when your husband is never around but I know they 
will never do anything to change that since it comes with the job.
                                 ______
                                 
    I received an e-mail from . . . Regarding your upcoming senate 
meeting on Monday. The only things I can think of at this time that I 
am wondering about are the following:
    Emergency medical problems can not be taken care of at the NACC 
because they no longer deal with these things, but when we go to the 
emergency room at the hospital, Tricare doesn't always cover it. Either 
have the NACC set up with an `emergency' area and walk-in clinic like 
it used to have, or else have Tricare set up to cover the full cost of 
the ambulance to the closest hospital and the emergency room visit like 
it would if we went to a military facility.
    Second, the Red Cross used to offer free passes for activities to 
military families. How can we see about getting them to resume this for 
families with children only? It's great for the moral of the kids and 
parents, especially during times of deployment when you're trying to 
fill the hours with things to take your mind off of counting the days. 
I say'for families with children only' because when they were doing 
this a couple of years ago, most passes got grabbed up by single guys, 
couples, and people bringing a bunch of their childrens' friends that 
were non-military.
    Third, have PSD honor the Power of Attorney's that we have. Spouses 
with these documents cannot do anything if something goes wrong with 
Deers, pay, bonuses, etc. because the military says that even with a 
P.O.A., they cannot talk to us because it's not our pay, it's our 
husbands'. I know of many couples who had their pay get messed up while 
the husband was deployed, and nothing could be done to fix it until the 
husband returned. Those few months can make a big difference though to 
the lives and financial status of the spouse and children while they 
wait.
    Offer free classes to spouses that deal with basic car and home 
maintenance, bills, taxes, first aid, or whatever else might come up 
while the husband is deployed and that the wife might not know how to 
take care of.
    Lastly, I have a friend who is eligible to go from her 2 bedroom 
home in housing to a 3 bedroom. There are some new 3 bedrooms already 
done, but she was told that she was not able to get one of these 
houses. Housing told her that only families moving here from elsewhere 
were able to receive these houses at this time. Families going from a 2 
to a 3 bedroom in housing were only allowed an older 3 bedroom at this 
time, and then would be moved again within a year or two to a new 3 
bedroom when the time came for the housing area in which she was to 
move to be re-renovated. Why make people keep moving like this? Just 
let them have the new houses now if they are done and ready to be moved 
into. I was also told that families moving to a larger bedroom house 
have to pay for and move themselves. This is difficult to do when it's 
just you, and your children underfoot. I know that professional movers 
here are very expensive, and most of us wives can't move heavy 
furnitur! e all by ourselves. Even when our husbands are here, it's 
still hard to do. Especially when for a move such as this, they don't 
get time off to take care of it unless they are able to take leave. I 
don't think the Navy should have to allow these types of moves to be 
ditty moves, but they could at least have their movers do it for us 
like they do when we move to a new base.
    I don't know if any of these issues are the types of things which 
you will be talking about on Monday, but these are the things that 
concern me at this time. Thank you very much for reading my input. I 
hope it may be of some help to you.
    Sincerely Yours,
                                 ______
                                 
    Good Morning,
    My name is Kelly Killingbeck. I am a civilian employee at the NACC, 
but my husband is active duty down at NSSF. I read over your email 
regarding information to pass on at the meeting. Though, for the most 
part I don't have any bad issues with being a Navy wife, currently we 
are experiencing severe problems with housing. Recently, there have 
been several rumors around base about the Privatization of Military 
Housing. Generally, when this does take effect,
    It will not affect military families in a big way. It does affect 
those of us who choose to live in the Navy's Mobile Home Park. We have 
orders to move in Dec of this year. We already had someone in the Navy 
who was interested in buying our mobile home. They went to talk to 
housing. Housing told them no one would be allowed to move in or sell 
their existing homes. They said that they were closing the Mobile Home 
Park. Current residents could stay there through their current orders 
only. Through many phone calls and visits, not only to housing but also 
Public Affairs and legal visits, we are still waiting for answers. Many 
bases throughout the US are doing this exact thing. Unfortunately for 
us, there is no standard policy on how to handle this issue. Some bases 
are offering financial assistance to move the house, others are just 
letting the military member pay the price. When we bought our home back 
in 2000, we had no intention of moving the mobile home. We have had 
several neighbors who have no problems selling their homes in the last 
3 years. We have approximately 40 other Navy families that live in this 
park who are all about to get swept under the rug. The worst part of 
all is that they don't even know. The only reason any of this was 
brought to our attention was in preparing to sell the home. Nothing has 
been officially released. Calls to housing have gone unanswered.
    They have told us they will be releasing information in the ``next 
week or two''. This was back in the end of April. We have been told we 
can sell the home to someone who is willing to move it. This may sound 
like no big deal, except even to move it 50 miles could cost up to 
$3000. We have also discussed moving it to our next duty station. This 
will cost anywhere from $2000-$6000 out of our own pocket. Then we need 
to find a lot to put it since all the Navy's Mobile Home Parks are 
being closed. They are no easy solutions to this problem. Morally, we 
feel the Navy is supposed to be taking care of its own. They have shown 
no regard for the families that live in Cherry Circle. They need to 
show some respect to those serving. The only real solution to this 
problem is for the Navy to take responsibility for their actions and 
buy the mobile homes at fair market value. They need to start by at 
least being truthful to the families who are financially bound to their 
homes. I thank you for time. Sorry this is so long, but there is still 
a lot more information out there. I have done a lot of investigated 
trying to help out the Legal man in my husband's office. They continue 
to try to get us answers, but it is slow going for those of us who do 
not have much time in our duty stations. Thank you again for your time 
and anything you can do to bring this issue to someone's attention. I 
know that in the big scheme of things, 40 Navy families don't mean 
much, but the Navy is supposed to take care of all those serving. Thank 
you.
    Sincerely,
                                 ______
                                 
    Hi Deb,
    I forwarded a message I received from one of the wives. I would 
also like to comment on how awful housing is here. Not the property 
managers, but the housing office itself. They make a move to a new 
family in the area more stressful than it should be. Power trip is what 
I would call it. The struggle just to get what you are qualified for is 
unbelievable (I have 3 teenage kids, now ages 17, 15, & 13 and they 
promised us a 4 bedroom for the next week, and then they'd give it to 
someone else and promise one for the next week . . . and so on for a 
month. We finally ended up in a 3 bedroom and had to fight for 2 years 
to get put in a 4 bedroom) and then some of the rules. I think we need 
a little updating on some of these. Like I was told . . .they have been 
here since the dawn of time . . . time to update. One for example, 
since it is summer time . . . swimming pools. The size they allow, my 
children's ankles may get wet. If there is supervision, or even if we 
had to have it in a fenced in yard . . . something . . . I think they 
should be allowed. I'm not talking full size or inground pools, but 
bigger than the size allowed now. If you can buy it at Target, Walmart, 
etc you should be able to put it up. There are many other incidents 
that need to be looked into with housing. Maybe read into some of the 
files.
    Thanks,
                                 ______
                                 
    please say something about the housing its so awful here. I live in 
old polaris park the ghetto!! off of jackson. secondly please let them 
know how difficult the seperations are for families with special needs 
kids I have two of them and its so very difficult sometimes. maybe 
suggest a support group for families with special needs kids. thank 
you!
                                 ______
                                 
    Hey Debbie,
    I am sure I am not alone but as I am dealing with it as we speak, I 
am very passionate about it: Housing, I am being relocated because of 
the remodeling, I understand that they need this and the benefits it 
will have even on my life. however I would have an issue with the 
communication between everyone with the construction company, housing, 
and residents. This is a very long story with way to much to type here, 
I am sure I am not the first one with this issue but I feel very strong 
about the way that our children are being treated when this happens, 
here where we live they blocked off the path to the school 10 min 
before the school was to dismiss and did not inform anyone! Leaving the 
children with potentially no way to get home. Again the issue is not 
new I am sure but do feel it is a very important one. I would be happy 
to elaborate more on the entire situation if you would like please feel 
free to give me a call, you may email me however I will be in the 
process of moving the computer over to the new house and will be slower 
as I will be checking it in the evening only, until say Friday. I hope 
you have a great day and are able to receive the info you need.
    Sincerely,
                                 ______
                                 
    Debbie,
    My biggest concern/gripe at this point is the closing of the 
Women's Health Clinc at the NACC. For the past 23 years I've been 
normal on all my ``Women's Stuff!'' In recent years my ``stuff' has 
changed. I've had abnormal pap's with mid grade cancer, and have also 
had problems with my mamograms. Have had two different ``scares.'' I 
love the Womens Health Clinic because I see the same Doctor and she 
genuinely cares and follows my progress. Not saying anything bad about 
the Family Practice Doc's, just my preference. Now that they will be 
closing I will be referred to the outside and have to deal with the 
Hell we call TRICARE! ! Everytime I've been sent out for different test 
I end up having to take more time off of work to take my paper work to 
the Tricare Advisory people to have it straightened out and paid. I 
like it as simple as possible.
    I guess the Powers that be don't feel there is a need for Women's 
Health Clinic at a Submarine Base, but we all know that there are 
plenty of Active Duty Female in need here just like the Family 
Memebers.
    Well that's about it for my big concern! Thanks for letting us 
know, and I for one appreciate all that you do for the Ombudsman and 
our Community!
    Sincerely,
    NACC : Over the years I have seen some positive changes in the way 
things are done at the NACC. Most recently though I see them cutting 
staff and services in an already overloaded system. Most Physicians out 
in town do not want to deal with Tricare Prime because of the very low 
amont of reimbursement they get. Medicare patients have an easier time 
getting into an outside Pediatrician. I feel that the areas that are 
most utilized and desperately needed (Women's Health, Pediatrics and 
Pharmacy Services) should be adequately staffed and not downsized.
    HOUSING: The rules for living in housing need to be enforced better 
and in a less random fashion.The changes being made to units look very 
impressive but they're taking quite some time to complete. Rather than 
starting one or two or even three projects in different areas why cant 
they be coordinated to disrupt a minimum of traffic flow and complete 
one section at a time?
    I understand the importance of training and being prepared for war. 
I think a greater effort could be made to minimize the time that the 
boats need to be deployed during peace times.
    I would like to tell the ``powers that be'' that I am most grateful 
to hear the military spouses being thanked for their dedication and for 
the sacrifices they make. AND thanks for asking
                                 ______
                                 
    Hey Deb, hope this helps. Good luck!!!!!!! LP
    BAD:
    MY biggest complaint is on Health Care Im receiving here in Ct. 
Everytime I talk to someone at Tricare I get a different answer. The 
Tricare office in Groton keeps messing up or losing my papers so that 
when I see my PCM I get charged/billed as a walk in (no referral) 
patient. Maybe its the plan Im under but I cant be certain ANY 
information I get from Tricare to be accurate, so why change and 
potentially make the situation worse. Weve been here 6 months and Im 
still trying to get answers so I can get the Health care I need without 
having to pay hundreds of dollars out of pocket for each office visit.
    GOOD: I feel they did good with BAH increases. Keep increases like 
that coming!!! Its so helpful to those of us who don't live in base 
housing (whether by choice or having to wait for base housing 
availability).
    HUBBYS COMPLAINT: he'd like to see more parking on base, especially 
since they have closed lower base to vehicles. I know parking is a 
daily headache for our guys. I also know the state wont allow some of 
the old buildings on base to be torn down to make parking garages 
because they are ``historic'' or something of that nature. 
Nevertheless, more parking would sure make things a little easier.
    Breakdown: Need better healthcare, need MORE parking, Keep BAH 
increases coming.
        Response to Questions of Senator Dodd From Debbie Estes
    Question 1. Mrs. Estes. In your opinion, what are the three biggest 
quality of life concerns facing our military families?
    Answer 1. The three biggest quality of life concerns facing our 
military families:
Housing
    There is a huge concern regarding the Public-Private Venture 
implementation here at New London: First, the idea that we will be 
charged our BAH rate to ``rent'' houses. Everyone is aware of the 
response that ``it will not be any different but the concern missed at 
the hearing was that of families paying different amounts to live in 
the same house. For example a chief living in Trident Park (2 bedrooms) 
will be paying considerably more than an E4 living next door in the 
same exact house.
    Second, is the concern of mixing civilians into housing. Although, 
none of the bases so far have had this occur, this makes a lot of 
families nervous. At least with military families next door we are all 
in the ``same boat'' and can be held accountable by the Navy and our 
commands.
    Third, who will set the rate for usual and customary utilities? Are 
they going to properly insulate our houses before doing this?
    Why not set the price of a unit depending on the number on 
bedrooms, just as if you were renting out in town. A four bedroom would 
be more expensive than a two bedroom, no matter what your rank is. If 
you want more bedrooms, your rent would be higher.
Tricare
    The NACC here at Subbase has changed dramatically. The emergency 
room as been removed and the Women's Health clinic is getting ready to 
be closed. This is clogging the civilian ER's and making referrals an 
even longer process. It will take three months to replace our ENT 
doctor here on base and a lot of the specialty clinics have closed 
completely.
    One also wonders why the NACC closed on Wednesday afternoons for 
training.
    It is hard to get an appointment to start with, why can't they 
train in the evening or on the weekends. This would allow for another 
whole afternoons for appointments.

    Question 2. Mrs. Estes. How are the services provided on-base for 
families just moving to the base?
    Answer 2. Moving to Groton
    The Fleet and Family Service Center has a Relocation Specialist 
that can assist families in the relocation process. This service is 
invaluable. The housing office has a great computer data base of 
rentals and houses for sale that can be viewed at anytime by families.

    Question 3. Mrs. Estes, can you describe your experience before, 
during and after your husbands' deployments? Can you cite any specific 
examples where the Navy and community network has either provided 
necessary help, or come up short in supporting you during these times?
    Answer 3. Deployment stress
    Not enough paper for the experience our family members go through, 
we should be proud of them all. A good example of when the community 
and the Navy came together to help out was in my own experience. When I 
had my baby my husband was away and a NACC representative came to the 
hospital and gave the package with all the NACC information that I 
would need to enroll my daughter in DEERS. He even scheduled my two 
week check up for her right there on his computer. This program was not 
in-place when my son was born four years ago and it made a huge 
difference.
    Also in the same instance, The Navy Marine Corps Relief Society 
visiting nurses were contacted by the hospital and they came to the 
house. They performed a check up for my baby and were a huge source of 
support for me being alone with a new baby and a preschooler. They 
performed her PKU so I did not have to go the base to do it. This is a 
wonderful service, the only comment I could make would be that they 
need more funding for more nurses!

    Question 4. Mrs. Estes, In your opinion, which programs/services 
provided by the community do you think would be best replicated at 
other military facilities in the country?
    Answer 4. National models that I feel should be shared.
Fleet and Family Service Center
    This program offers our families so much support and resources. 
They have programs ranging from Budgeting, Deployment, Counseling, 
Information and Referral, Spouse Transition, Resume building and all 
kinds of programs for children.
Child development center
    This program is truly wonderful. They have full time in the center 
care along with hourly drop-in. They also provide Home daycare with 
certified providers in Navy Housing.
    The Only draw back to this program is the lack of air conditioning 
going into the summer months. Every year they have a broken air 
conditioner and this year as of June 20, it is still not working. This 
is unsafe for the children as well as the providers. The Center has to 
reach 95 degrees in the rooms before it can be closed. Some find it 
amazing that a 3 million dollar renovated center does not have a 
reliable working air conditioning system. It is sad when you have to 
dress your baby when you pick them up because it was too hot in the 
rooms and they had to be stripped to their diapers.
    The other idea with the CDC is to remove the BAH from the 
calculation of fees. As family members, we do not see this money 
directly if we live in housing.

    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]

                                    

      

</pre></body></html>
